            PUBLIC
           RELEASE


PATENT AND TRADEMARK OFFICE

Office of Enrollment and Discipline Must
  Conduct More Timely Investigations of
        Complaints Against Practitioners

  Final Audit Report No. PTD-10627-8-0001 / June 1998




    Office of Audits, Business and Trade Audits Division
U.S. Department of Commerce                                                                                          Final Report PTD-10627
Office of Inspector General                                                                                                        June 1998

                                                     TABLE OF CONTENTS

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

          Purpose and Scope of Audit . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

FINDINGS AND RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

          I.         Discipline Inventory Has Increased as Staff Concentrates on Enrollment Work . . . . 3

          II         Reliance on Solicitor’s Office Causes Problems . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

          III.       OED Staff Overwhelmed by Rising Enrollment Workload . . . . . . . . . . . . . . . . . . . . . 5

          IV.        Attorneys Disciplined by State Bars Continue to Practice at PTO . . . . . . . . . . . . . . . 6

          V.         Review of Technical Qualifications Does Not Require an Attorney . . . . . . . . . . . . . . 6

          VI.        Poor Communications Delays Grading of Examinations . . . . . . . . . . . . . . . . . . . . . . 7

          VII.       Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

          RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

                     PTO’s Response to Draft Report . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

          ATTACHMENT:                      PTO’s Complete Response to Draft Report
U.S. Department of Commerce                                                         Final Report PTD-10627
Office of Inspector General                                                                       June 1998

                                      EXECUTIVE SUMMARY

The Patent and Trademark Office regulates the recognition and ethical conduct of individuals
practicing before it. Although only attorneys can practice in trademark cases, patent practitioners
may be lawyers, or non-lawyers called agents. The Office of Enrollment and Discipline was created
in 1985 to administer the rules for admission to practice before PTO as well as the PTO Code
governing that practice. OED’s responsibilities include:

!      Determining the qualifications of individuals applying for registration;
!      Preparing, administering, and grading the examination for registration to practice before the
       PTO;
!      Registering individuals to represent patent applicants before PTO and maintaining a roster of
       registered practitioners; and
!      Investigating complaints of possible unethical conduct by practitioners and taking
       disciplinary action when appropriate.

We conducted a performance audit to evaluate the effectiveness of the Office of Enrollment and
Discipline and to identify factors that may be inhibiting its satisfactory performance. Complaints
against PTO practitioners are not expeditiously pursued to prevent expiration of cases under the five-
year statute of limitations observed by PTO. The amount of discipline work performed by OED has
declined each of the past two years. In FY 1997, OED completed only four investigations. By the
end of the fiscal year, the inventory of pending complaints and investigations had grown to 296, up
from 145 at the end of FY 1995. The problems in pursuing violators appear to be the result of an
imbalance between OED’s staffing and its growing enrollment-related workload.

To address the problems that inhibit satisfactory program performance, we are recommending that
PTO: (1) dedicate three staff to discipline work, (2) allow OED to hire its own prosecutor, (3)
immediately fill three vacant positions in OED, (4) change its rules with respect to attorneys who are
disciplined at the state level, (5) refrain from assigning attorneys to review candidates’ technical
qualifications, and (6) require closer coordination with the registration examination administrator.

In its reply to our draft audit report, the Patent and Trademark Office said that it substantially accepts
the recommendations, and will, given the necessary resources, implement the changes and evaluate
areas for potential change as suggested. We are pleased that PTO agrees with the recommendations
contained in the report and has promised to implement them. However, we question why PTO has
chosen to condition the implementation of some recommendations on the availability of additional
resources. With 5,134 full-time equivalent staff, we believe that PTO can easily afford OED the
three additional staff recommended in the report. Therefore, PTO’s promise to address the problems
by the end of FY 1999 would not resolve the recommendation in a timely fashion. During that time,
dozens more investigations will have expired unnecessarily.

PTO’s complete response to the draft report is included as an attachment.

                                                    i
U.S. Department of Commerce                                                        Final Report PTD-10627
Office of Inspector General                                                                      June 1998

                                          INTRODUCTION

The Patent and Trademark Office regulates the recognition and ethical conduct of individuals
practicing before it. Although only attorneys can practice in trademark cases, patent practitioners
may be lawyers, or non-lawyers called agents. To become a registered patent practitioner,
individuals must be of good moral character; possess the necessary legal, scientific, and technical
qualifications; and pass an examination given by PTO to demonstrate their competence. There are
currently 15,823 lawyers and 3,567 agents currently registered to practice in patent cases. All
registered practitioners are obligated to abide by the PTO Code of Professional Responsibility
contained in Title 37, Part 10 of the Code of Federal Regulations.

The Office of Enrollment and Discipline was created in 1985 to administer the rules for admission to
practice before PTO as well as the PTO Code governing that practice. OED is a small office
consisting of 7.5 staff that includes 3 attorneys (2 full-time and 1 part-time). Three additional
positions are currently vacant. Because of its limited staffing, OED relies on PTO’s Solicitor’s
Office to help with some of its work. OED is managed by a director who reports to the Deputy
Commissioner. In FY1997, OED accounted for $1.24 million of PTO’s total obligations of $716
million. OED’s responsibilities include:

!      Determining the qualifications of individuals applying for registration, including moral
       character, legal, scientific, and technical qualifications;
!      Preparing, administering, and grading the examination for registration to practice before the
       PTO;
!      Registering individuals to represent patent applicants before PTO and maintaining a roster of
       registered practitioners; and
!      Investigating complaints of possible unethical conduct by practitioners and taking
       disciplinary action when appropriate.

When a complaint against a practitioner is filed, an investigation is usually conducted to gather
information. If the evidence indicates that a willful violation of a disciplinary rule has occurred, the
case goes to the PTO Committee on Discipline to determine if there is probable cause to bring
charges against the practitioner. Should they agree with OED that there is probable cause, a
disciplinary proceeding is initiated before an administrative law judge (ALJ). The decision of the
ALJ may be appealed to the Commissioner.

Prior to 1985, the responsibility for investigating and prosecuting violators of the PTO Code resided
with the Solicitor’s Office. At that time, PTO amended its rules to address the conflict inherent in
the Solicitor’s dual role as prosecutor and as adviser to the Commissioner on appeal cases. There
was also concern that the Solicitor’s Office could not efficiently or properly handle investigations in
light of its other responsibilities.




                                                    1
U.S. Department of Commerce                                                     Final Report PTD-10627
Office of Inspector General                                                                   June 1998

For years, PTO took the position that disciplinary proceedings are not subject to statutes of
limitations. However, decisions in two recent court cases have held that most administrative
proceedings of government agencies are subject to a general five-year statute of limitations specified
in 28 U.S.C.§ 2462. The statute prohibits a proceeding for the enforcement of any civil fine, penalty
or forfeiture unless commenced within five years from the date when the claim first accrued (the date
of the violation).

                               PURPOSE AND SCOPE OF AUDIT

The purpose of this audit was to evaluate the effectiveness of the Office of Enrollment and
Discipline and to identify factors that may be inhibiting its satisfactory performance. To accomplish
this, we discussed OED’s performance with PTO management and staff familiar with OED, as well
as interested parties, such as the Intellectual Property Owners, the American Intellectual Property
Lawyers Association, and people who provide training on PTO’s registration examination. The
Director of Practice at the Internal Revenue Service was also interviewed to compare differences
between that agency’s and PTO’s approach to the regulation of practitioners.

We reviewed pertinent documents related to OED’s performance, such as process improvement
studies, and public comments and testimony. We also analyzed documents related to OED’s
workload and budget, and assessed the adequacy of its resources. Our review was limited because
adequate records were not kept about OED’s discipline workload prior to 1995. We did not evaluate
internal controls over certain computer-generated data; however, we performed sufficient tests to
satisfy ourselves that key data provided by PTO was reliable.

Our fieldwork was conducted from December 1997 to February 1998. We conducted our review in
accordance with generally accepted government auditing standards. In addition, the audit was
planned to test compliance with significant laws and regulations. It was performed under the
authority of the Inspector General Act of 1978, as amended, and Department Organization Order 10-
13, dated May 22, 1980.




                                                  2
U.S. Department of Commerce                                                          Final Report PTD-10627
Office of Inspector General                                                                        June 1998

                              FINDINGS AND RECOMMENDATIONS

III.   DISCIPLINE INVENTORY HAS INCREASED AS STAFF CONCENTRATES ON
       ENROLLMENT WORK

The Office of Enrollment and Discipline has not expeditiously completed investigations of
complaints against patent practitioners in time to avoid triggering the five-year statute of limitations.
As a result, no charges are filed in cases that are older than five years, even if the investigations
uncover evidence that a violation has occurred. Instead, PTO issues warning letters. The delays in
pursuing violators are caused primarily by the growth of OED’s enrollment workload, which has
“crowded out” a large portion of OED’s discipline work in recent years. Instead of doing
investigations, OED staff attorneys must concentrate on enrollment work in order to meet the many
deadlines that surround the annual examination for registration to practice in patent cases. The
following table depicts the decrease in OED’s discipline-related production since FY 1995:

                     DISCIPLINE WORK                     FY1995 FY1996 FY1997
                     Complaints Received                  74        91         69
                     Investigations Opened1               71        10         36
                     Investigations Completed             45         5          4
                     Pending Investigations (9/30)        134       139        171
                     Pending Complaints2 (9/30)           11        82         125
                     Total Pending Complaints             145       221        296
                     and Investigations (9/30)

The amount of discipline work performed by OED has declined each of the past two years. In FY
1997, OED completed only four investigations. By the end of the fiscal year, the inventory of
pending complaints and investigations had grown to 296, up from 145 at the end of FY 1995. As a
consequence of the growing inventory, 91 cases OED currently shows as pending are older than 5
years and therefore affected by the statute of limitations. An additional 39 cases will become 5 years
old during 1998. The number of cases being actively pursued has declined to the point that the
Committee on Discipline, the group responsible for determining probable cause, has not convened
since 1996. In the past, the Committee had usually been referred three to four cases per year.


       1
           A complaint may result in zero, one or multiple investigation(s), based on its merits.
       2
           A pending complaint is awaiting a preliminary assessment of its merits by OED.


                                                     3
U.S. Department of Commerce                                                       Final Report PTD-10627
Office of Inspector General                                                                     June 1998

Investigations require continuous attention and cannot be efficiently performed when they are set
aside for long periods. To begin reducing the inventory of discipline cases, we believe that OED
needs to dedicate two full-time staff to investigations, as well as a trial attorney to take over the
prosecution of violators from the Solicitor’s Office (see below). Although investigations vary
greatly in length making precise estimates difficult, our analysis of OED’s workload indicates that
the Office needs almost two full-time staff just to handle new complaints. The trial attorney can
assist with reducing the inventory of investigations when not trying cases. Both the former and
current OED Directors agree that 3 dedicated staff, without the distraction of enrollment work,
should be adequate to handle the current workload as well as reduce the inventory.

Additional corroboration of the number of staff needed comes from an ABA survey of state lawyer
discipline agencies which indicates that even the smallest states, with fewer individuals to oversee
than PTO, have at least three paid staff to address complaints. The survey also shows that most states
are able to bring a complaint to closure in less than a year. The Director of OED has proposed a
more modest goal of completing investigations within two years. To accomplish this, and assume
responsibility for prosecutions, we estimate that at least three full-time staff should be dedicated to
discipline-related activities.

II.    RELIANCE ON SOLICITOR’S OFFICE CAUSES PROBLEMS

When OED was created, the role of the PTO Solicitor in investigations and prosecutions was limited
by Rule 10.140(b). The rule states that OED will be represented in disciplinary proceedings by
associate and assistant solicitors designated by the Commissioner, but stipulates that “the Solicitor
and Deputy Solicitor shall remain insulated from the investigation and prosecution of all disciplinary
proceedings.” To enforce this separation, an “ethics wall” limits communications between the
Solicitor and those on her staff that work for OED. In disciplinary matters, the associate and
assistant solicitors report only to the Director of OED.

However, we believe that OED should thoroughly assess the possibility of employing its own
prosecutor rather than rely on the Solicitor’s Office to prosecute cases for several reasons. An
experienced trial attorney, working with OED staff, could evaluate the strength of the case at an early
stage and provide direction that would improve both the efficiency and effectiveness of
investigations. Lacking this type of experience, OED relies on the Solicitor’s Office for an objective
evaluation of evidence. But because of the Solicitor’s heavy workload, these reviews can take up to
four months, prolonging the already lengthy investigative process. Adding a prosecutor to OED
would also reduce the growing amount of work that OED staff send to the Solicitor’s Office. One of
the reasons OED was created was to relieve the Solicitor’s Office of the burden of doing
investigations. At that time, PTO’s Deputy Commissioner observed that the Solicitor’s Office was
not able to devote adequate time to investigations. As more investigative work is sent to the
Solicitor’s Office, we believe that this argument is still valid.




                                                   4
U.S. Department of Commerce                                                       Final Report PTD-10627
Office of Inspector General                                                                     June 1998

In addition, an OED prosecutor would reduce the number of contacts with the Solicitor’s Office,
further strengthening the “separation of powers” intended in the amended rules. Because of its
responsibilities as the Commissioner’s legal adviser, the involvement of the Solicitor’s Office in
discipline cases remains a delicate issue. In recent years, that office has played a more active role in
disciplinary matters, even providing guidance to the OED Director about what types of cases the
Commissioner wants to pursue. The Associate Solicitor explained that the Office is trying to
conserve resources by discouraging cases in which the Commissioner lacks interest. While
dispensing such advice is not prohibited, lawyers familiar with the rules have suggested that it would
be more appropriate for OED to be guided directly by the opinions issued by the Commissioner in
deciding appeals.

III.   OED STAFF OVERWHELMED BY RISING ENROLLMENT WORKLOAD

As noted earlier, a primary reason for the declining number of investigations has been an increase in
OED’s enrollment workload, which is being driven by the growing number of candidates who take
the registration examination. Since 1986, that number has increased from 722 to 3,162. Yet, OED
has only three enrollment staff, the same number as in 1986.

For each examination candidate, OED must perform several labor-intensive tasks, including
processing the application for registration, evaluating the candidate’s technical qualifications,
formulating examination questions, and grading the responses. Also adding to OED’s workload is
the rising number of applicants requesting that their exams be regraded. Requests for regrades have
grown from 71 in 1985 to as high as 267 in 1995. At different times of the year, one of these
activities predominates, and all OED staff are expected to help for a period of time. As the
workload has grown, those periods have become longer. OED records indicate that during a 6 month
period in 1997, staff spent 71 percent of their time on enrollment work, and only 14 percent on
discipline.

Several reengineering initiatives are currently underway that will change the way OED performs
enrollment work. Foremost is the change to an examination with an all multiple-choice format,
rather than part multiple-choice and part essay. OED management is also working with PTO’s Chief
Information Officer to establish a new workflow system that will automate many administrative
tasks, such as handling application requests. The system will gradually expand to handle additional
enrollment and discipline functions and provide OED with improved management reporting. In
another time-saving initiative, OED is planning to discontinue the annual survey of practitioners it
undertakes to update its roster of registered patent lawyers and agents. The Director is also
considering giving the examination in a computer-administered format to minimize staff work at
each level in the process. These changes to the office’s operations should enable it to work more
efficiently than it has in the past.

At present OED has 7.5 staff plus 3 vacant positions. Although OED has not been adequately staffed
in past years, it is difficult to determine exactly how many staff will be needed until the new systems


                                                   5
U.S. Department of Commerce                                                       Final Report PTD-10627
Office of Inspector General                                                                     June 1998

are fully operational. The Director of OED should be allowed to immediately fill the three vacant
positions and obtain temporary staff, if needed, during this transitional period. After all changes
have been implemented, OED’s staffing levels should be reassessed.

IV.    ATTORNEYS DISCIPLINED BY STATE BARS
       CONTINUE TO PRACTICE AT PTO

Attorneys who have been suspended or disbarred for ethics violations by state bars can continue to
practice before the PTO, even when the misconduct also violates PTO’s own ethics rules. According
to OED staff, a significant percentage of practitioners about whom they receive complaints have
already lost their license in at least one state.

This situation persists for several reasons. First, OED is generally not informed of the disciplinary
actions by the practitioner or prosecuting state bar, and does not have easy access to such
information. However, even when the sanctions are discovered, PTO has no means of expediting
proceedings against suspended or disbarred attorneys. Legal maneuvering can prolong the process
for years, during which time the attorney may continue to practice.

In addition, PTO’s rules do not prevent attorneys who have lost their professional license from
changing their registration status from patent lawyer to patent agent and continuing to practice.
Agents, like attorneys, are allowed to prepare and prosecute patent applications, although they cannot
conduct patent litigation or perform other legal services. We believe that this omission represents a
significant “loophole” through which disciplined attorneys can evade further sanctions.

To address these problems, PTO should consider revisions to its practice requirements as well as its
patent rules concerning representation before the PTO. First it should change its disciplinary rules to
create an affirmative duty on the part of the practitioner to inform OED of changes in state bar
licensure. PTO should also seek authority for expedited proceedings against practitioners suspended
or disbarred for misconduct, similar to the provisions granted the Internal Revenue Service by the
Code of Federal Regulations. Faced with the same problem, the IRS allows their Director of
Practice to conduct expedited proceedings to suspend any IRS practitioner who has lost his or her
license within the past 5 years. Finally, PTO should close the “loophole” that allows attorney
practitioners to convert to agent status after suspension or disbarment for ethics violations.

V.     REVIEW OF TECHNICAL QUALIFICATIONS
       DOES NOT REQUIRE AN ATTORNEY

Highly graded staff attorneys in OED spend a significant portion of their time reviewing the
technical qualifications of applicants to take the examination. We believe that this review does not
require legal skills and could be done for less expense by non-attorneys. According to records kept
by OED, the attorneys spent 20 percent of their time on this task during a six-month period in 1997.



                                                   6
U.S. Department of Commerce                                                      Final Report PTD-10627
Office of Inspector General                                                                    June 1998

The review entails comparing an applicant’s college course work with the qualifications necessary to
take the exam, as specified in the General Requirements for Admission to the Examination. An
applicant can meet the requirements by either having a bachelor’s degree in a technical subject, or
showing they have equivalent training based on their college course work3. Determining whether an
applicant without a technical degree has the necessary qualifications requires the reviewer to
exercise judgement. For this reason PTO prefers to have attorneys with technical knowledge as
reviewers rather than other enrollment staff who are mostly clerical.

But in the General Requirements, PTO has outlined very specific criteria for qualifying without a
technical degree and placed the burden on the applicant for supplying proof of their qualifications.
The applicant is not only asked to furnish transcripts, but also course descriptions, and college
catalogues that minimize the need for the reviewer to use judgement. In our opinion, neither
technical knowledge, nor legal skills, should be required for the review. OED should assign the
review of qualifications to non-attorney staff with more appropriate skills.

VI.    POOR COMMUNICATION DELAYS GRADING OF EXAMINATIONS

The format of the August 1997 exam was changed to eliminate essay questions and make the entire
exam gradable by machine. Formerly, the examination section on claims drafting contained essay
questions that required a significant amount of staff time to grade. According to an analysis by OED,
attorneys spent 46 percent of their time grading and regrading essay questions during a six-month
period in 1997.

The new all multiple-choice format is intended not only to save OED significant time, but also to
remove subjectivity from the grading process and enable applicants to receive their scores sooner.
Although some in the patent community are skeptical that claims-drafting skills can be effectively
tested through multiple-choice exams, two firms that prepare applicants to take the exam praised the
new claims-drafting section.

However, OED failed to adequately notify the test administrator of the specific changes to the
format. PTO has had an interagency agreement with the Office of Personnel Management (OPM) to
administer the registration examination. The agreement necessitates close coordination between the
two agencies. But OPM first learned of the test changes when it received the scoring key 10 days
after the exam was given, despite the fact that the exam and the scoring key were finalized weeks in
advance of the examination. The failure to notify OPM was the result of poor internal
communication within OED. The changes in the exam required reprogramming the system that
grades the exam, and delayed releasing the grades by two months. Applicants were forced to wait
unnecessarily to learn if they were eligible to practice before the PTO.


       3
        An applicant who meets neither criteria, can also qualify by passing the Fundamentals of
Engineering test administered by a state authority.

                                                  7
U.S. Department of Commerce                                                       Final Report PTD-10627
Office of Inspector General                                                                     June 1998

When preparing an examination, particularly one that is different from past exams, OED must pay
more attention to coordination with the exam administrator to ensure that they are provided with all
pertinent information at the earliest possible time.

VII.   CONCLUSION

OED’s effectiveness has been hampered by a growing imbalance between its staffing and workload
to the point where investigations have impinged upon the five-year statute of limitations. Patent
applicants, mostly small entities, that have been victimized by unethical practitioners expect their
grievances to receive timely attention. Although the patent bar incurs fewer complaints than other
bar associations, compliance with the disciplinary rules cannot be taken for granted. The problems
impeding the performance of the enrollment and discipline programs deserve the prompt attention of
PTO management.

                                     RECOMMENDATIONS

We recommend that the Acting Deputy Commissioner of Patents and Trademarks:

1.     Require the Director, Office of Enrollment and Discipline, to dedicate three full-time staff to
       discipline work to reduce the inventory of complaints and investigations.

2.     Determine the feasibility of seeking a change in the rules that would allow OED to be
       represented in disciplinary proceedings by its own attorney and if possible, allow the
       Director, OED, to hire an experienced trial attorney to serve in this role.

3.     Require the Director, OED, to immediately fill the three current vacant positions, and also
       obtain temporary staff, if needed, to assist in implementing its new automated systems.

4.     Consider whether PTO should change its rules and general requirements to: (a) establish an
       affirmative duty for enrolled attorneys to inform PTO of a loss of “good standing” with any
       state bar; (b) conduct expedited proceedings to suspend attorneys who lose their licenses to
       practice due to ethics violations; and (c) prevent the conversion of enrolled attorneys to agent
       status after suspension or disbarment for ethics violations.

5.     Instruct the Director, OED, to assign the review of applicant technical qualifications to staff
       with skills that are more appropriate to the task.

6.     Request that the Director, OED, coordinate more closely with the registration examination
       administrator to ensure that the administrator has the exam-related information in a timely
       manner.




                                                   8
U.S. Department of Commerce                                                         Final Report PTD-10627
Office of Inspector General                                                                       June 1998

PTO’s Response to Draft Report

In its reply to our draft audit report, the Patent and Trademark Office said that it substantially accepts
the recommendations, and will, given the necessary resources, implement the changes and evaluate
areas for potential change as suggested. They noted that some recommendations can not be
implemented until corrective action contained in others is accomplished. However, PTO views the
recommendations as supportive of its reengineering plan and is committed to implementing them by
the close of fiscal year 1999.

As a general comment, we are pleased that PTO agrees with the recommendations contained in the
report and has promised to implement them. However, we question why PTO has chosen to
condition the implementation of some recommendations on the availability of additional resources.
With 5,134 full-time equivalent staff, we believe that PTO can easily afford OED the three additional
staff recommended in the report. Therefore, PTO’s promise to address the problems by the end of
FY 1999 would not resolve the recommendation in a timely fashion. During that time, dozens more
investigations will have expired unnecessarily.

Although the Office of Enrollment and Discipline is statistically a small part of PTO’s program, it
provides an important and highly visible service to PTO’s customers, one that is particularly valuable
to small entities and aspiring patent practitioners. We urge PTO to give OED the resources
necessary to implement the recommendations without delay.

A summary of PTO’s position on each recommendation follows along with OIG’s comments. A
copy of the complete response is attached to the final report.


Recommendation #1:

Require the Director, Office of Enrollment and Discipline, to dedicate three full-time staff to
discipline work to reduce the inventory of complaints and investigations.

PTO Response: PTO agrees that at least three full-time staff members are needed to reduce the
inventory. However, in order to implement the recommendation, adequate resources must be present
to support both the enrollment and discipline programs. PTO will explore ways in which it can
provide the necessary resources to the enrollment program, so that it can dedicate sufficient resources
to the discipline program.

As an aside, PTO notes that the statute of limitations on violations of the PTO Code of Professional
Responsibility begins at the date of the violation. PTO found that frequently several years have
passed before an individual files a complaint. Additionally, PTO clarified our finding that it doesn’t
pursue complaints older than five years. The agency believes that the public’s best interests would



                                                    9
U.S. Department of Commerce                                                       Final Report PTD-10627
Office of Inspector General                                                                     June 1998

be for OED to pursue all complaints beyond the statute of limitations and to issue warning letters,
where appropriate.

OIG Comments: We agree that OED must have adequate staff assigned to the enrollment program
before it can implement this recommendation. We address the problem of inadequate enrollment
staff in our third recommendation. We hope and expect that PTO will implement both
recommendations well before the end of FY 1999 so that a credible deterrent to violations of the
PTO Code of Professional Responsibility can be reestablished.

Although OED is continuing to investigate complaints that are older than five years, PTO’s options
with regard to those investigations are restricted because of the statute of limitations. Complaints are
not referred to the Committee on Discipline to determine probable cause, nor are they accepted by
the Solicitor’s Office to be litigated. We question whether the issuance of a warning letter for a
violation that occurred over five years before will help to deter future violations.

Recommendation #2:

Determine the feasibility of seeking a change in the rules that would allow OED to be represented in
disciplinary proceedings by its own attorney and if possible, allow the Director, OED, to hire an
experienced trial attorney to serve in this role.

PTO Response: PTO indicates that it would consider adding an attorney to OED, but expressed
doubts about its feasibility. The reply notes that one isolated attorney would have difficulty
performing the responsibilities of determining the applicable law and how it would apply in a given
situation. The attorney would also need support from clerical staff and paralegals.

PTO further states that without a legal staff within OED, it is appropriate for them to seek legal
advice from the Solicitor’s Office. PTO stated that the screening wall within the Solicitor’s Office
was established to ensure that the Director receives strictly legal advice, not to avoid cases in which
the Commissioner lacks interest, as suggested in the report.

OIG Comments: PTO’s reply is responsive to our recommendation. While we appreciate the
logistical problems involved in placing a single trial attorney in OED, we believe that the potential
benefits would make it worthwhile. As stated in the report, an experienced trial attorney, working
closely with OED investigators, could enhance the effectiveness and focus of their investigations.
We hope that PTO will continue to evaluate the feasibility of this proposal.

Also, we would like to clarify our comment about OED’s relationship with the Solicitor’s Office.
Without its own legal staff, we agree that it is appropriate for OED to seek legal advice from the
Solicitor’s Office. However, in our view, the Solicitor’s Office should not suggest to OED, as the
Associate Solicitor told us, what types of cases the Commissioner wants to pursue. A patent attorney
analogized the situation to a prosecutor’s asking a judge for his preference of cases to hear.


                                                   10
U.S. Department of Commerce                                                        Final Report PTD-10627
Office of Inspector General                                                                      June 1998

Dedicating a trial attorney for OED would increase its independence and strengthen the “separation
of powers” intended when the responsibility for investigating and prosecuting violators of the PTO
Code was moved from the Solicitor’s Office.

Recommendation #3:

Require the Director, OED, to immediately fill the three current vacant positions, and also obtain
temporary staff, if needed, to assist in implementing its new automated systems.

PTO Response: PTO states that they are working with the Office of Human Resources to fill the
vacant positions, but also discounted their importance because OED’s productive capacity was not
significantly greater when it was fully staffed. PTO believes that the reengineering changes being
planned are more important to solving their problems than adding more staff. Those changes include
a new workflow system being developed in cooperation with PTO’s CIO office. The OED Director
is also working toward giving the registration examination in a computer-administered format to
eliminate, as much as possible, the cyclical nature of the staff work for each step in the examination
process.

OIG Comments: We are encouraged that PTO is moving to fill the three vacancies. However, we
continue to believe that these positions should be filled immediately, not in FY 1999. As stated in
the report, OED has the same number of enrollment staff as they did in 1986 despite a 330% increase
in the number of registration applicants. Already, 91 investigations have been affected by the statute
of limitations, with more expiring each month as OED struggles to cope with its enrollment-related
workload. In our opinion, additional staff are needed now and should not wait on the development
of a new workflow system or other operational changes. OED has been engaged in various
reengineering studies for over two years, and should know what skills new staff will need.

Recommendation #4:

Consider whether PTO should change its rules and general requirements to: (a) establish an
affirmative duty for enrolled attorneys to inform PTO of a loss of “good standing” with any state
bar; (b) conduct expedited proceedings to suspend attorneys who lose their licenses to practice due
to ethics violations; and (c) limit the conversion of enrolled attorneys to agent status.

PTO Response: PTO agrees with the recommendation and will consider the rule changes, but notes
that they would essentially require the creation of two separate rosters for agents and attorneys to
practice before the agency, instead of one. PTO seems willing to provide closer scrutiny of the
“prerequisites” for providing service to patent applicants, and that may justify further unspecified
differentiation between agents and attorneys.

OIG Comments: PTO agrees with the recommendation, but we do not agree that implementation
would require creation of a separate roster if attorneys are not allowed to change their status to that


                                                   11
U.S. Department of Commerce                                                        Final Report PTD-10627
Office of Inspector General                                                                      June 1998

of “agents.” We clarified our recommendation in this area to more precisely convey our intent that
PTO should prevent the conversion of disciplined attorneys to agents.

Recommendation #5:

Instruct the Director, OED, to assign the review of applicant technical qualifications to staff with
skills that are more appropriate to the task.

PTO Response: PTO agrees with the recommendation, but says that it does not presently have an
adequate staff of non-attorneys to whom it can assign this task. The review of technical
qualifications requires dedicating 1,650 staff hours over a three-month time period. The
reengineering plan being developed for OED will establish an enrollment staff of non-attorneys with
the appropriate skills needed to perform this work. In hiring additional enrollment staff, PTO will
seek individuals capable of reviewing technical qualifications, as well as performing other
enrollment-related tasks such as writing and regrading tests. PTO has been advised that this function
is one for which it cannot contract out to non-government employees.

OIG Comments: PTO’s reply is responsive to our recommendation.

Recommendation #6:

Request that the Director, OED, coordinate more closely with the registration examination
administrator to ensure that the administrator has the exam-related information in a timely manner.

PTO Response: PTO agrees with the recommendation and will ensure that the administrator at OPM
has exam-related information in a timely manner. However, PTO states that because OPM requests
only two weeks advance notice of the type of questions on the exam, the late notification should have
only led to a two-week delay, not a two-month delay.

OIG Comments: PTO’s reply is responsive to our recommendation. However, our fieldwork
indicates that the actual delay was, in fact, two months, due to other factors in addition to the delay in
the notification.


Attachment




                                                   12
